ES, IG-02-009, Summary Report on UNIX Operating System Security and Integrity Audits
IG-02-009
Summary Report on UNIX Operating System
Security and Integrity Audits
EXECUTIVE SUMMARY
The Office of Inspector General (OIG) summarized the findings from five OIG audits of
host-based UNIX security and integrity controls for six NASA information systems.  The
OIG reviewed certain UNIX-based hosts from each of the six systems.  We identified
significant recurring weaknesses in security and integrity controls for the UNIX systems
reviewed.
As a result of the deficiencies, NASAï¿½s UNIX system environments were vulnerable to
unauthorized access, which could have lead to intentional or unintentional system compromises
affecting the availability, confidentiality, and integrity of NASA information.
In prior reports on the five audits, we recommended corrective actions that would help
ensure compliance with applicable requirements and improve UNIX system security and integrity
controls.  Management generally concurred with the recommendations or the intent of the
recommendations and has taken or planned appropriate corrective actions.  This report does
not include any new recommendations.
This report contains information that may not be releasable to the
general public.
Rev. August 26, 2002